Donahue, Goldberg,
Weaver & Littleton

1008 Pennsylvania Avenue SE
Washington, DC 20003
(202) 683-6895
donahuegoldberg.com

February 22, 2021
By eFile
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543-0001
Re: PennEast Pipeline Co., LLC v. New Jersey et al., No. 19-1039
Dear Mr. Harris:
Please be advised that I am counsel of record for respondent New Jersey
Conservation Foundation in the above-captioned case. New Jersey Conservation
Foundation hereby gives blanket consent to the filing of briefs amici curiae in
support of petitioner, respondents, or neither party.
Sincerely,

Matthew Littleton
Donahue, Goldberg, Weaver & Littleton
1008 Pennsylvania Avenue SE
Washington, DC 20003
(202) 683-6895
matt@donahuegoldberg.com
cc:

Counsel of Record

